HHS/OIG, Audit - "Review of Graduate Student Compensation Costs Charged
to National Institutes of Health Research Grants," (A-05-06-00046)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Graduate Student Compensation Costs Charged to National Institutes of Health
Research Grants," (A-05-06-00046)
June 26, 2007
Complete
Text of Report is available in PDF format (393 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives
were to (1) determine whether universities and colleges limited the graduate
student compensation charged to
National Institutes of Health (NIH) research grants to the amount paid to
a first-year, postdoctoral scientist performing comparable work at the same
institution and to the National Research Service Award stipend in effect when
NIH awarded the grants and (2) provide
statistical estimates of the number of grants with graduate student compensation
costs charged; the number of researchers who received graduate student
compensation, including tuition remission, from NIH grants; and the costs of
such compensation.
For all sampled grants with graduate student compensation
charges, we found that universities and colleges appropriately limited graduate
student compensation charges to the amount paid to a first-year, postdoctoral
scientist performing comparable work at the same institution and to the National
Research Service Award stipend in effect when NIH awarded the grants.  This
report also provides statistical estimates related to graduate student
compensation costs charged to NIH grants.  The report contains no
recommendations.
We will provide the report to the two Members of Congress
who requested the review.